Case: 5:18-cv-00190-KGB

Document #: 61-0

Date Filed; 07/02/2019

Page 1 of 15

0

IN THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
PINE BLUFF DIVISION
PLAINTIFF

DEVERTCK SCOTT,
ADC #131042
5*18CV00190-KGB-JTK

v.

DEFENDANTS

WENDY KELLY, et a!.
PROPOSED FINDINGS AND RECOMMENDATIONS
INSTRUCTIONS

The following recommended disposition has been sent to United States District Judge
■

!

Kristine G. Baker, Any party may serve and file written objections to this recommendation.
Objections should be specific and should include the factual or legal basis for the objection. If the
objection is to a factual finding, specifically identify that finding and the evidence that supports

i.

your objection. An original and one copy of your objections must be received in the office of the
United States District Court Clerk no later than fourteen (14) days from the date of the findings

7

and recommendations. The copy will be furnished to the opposing party. Failure to file timely
objections may result in waiver of the right to appeal questions of fact.
If you arc objecting to the recommendation and also desire to submit new, different, or
additional evidence, and to have a hearing for this purpose before the District Judge, you must, at
the same time that you file your written objections, include the following:
I.

Why the record made before the Magistrate Judge is inadequate.

2.

Why the evidence proffered at the hearing before the District Judge (if such

a Hearing is granted) was not offered at the hearing before the Magistrate Judge,
3.

The detail of any testimony desired to be introduced at the hearing before
1

Case: 5: 18-CV-00190-KGB

Document #: 61-0

Date Filed: 07/02/2019

Page 2 of 15

i

the District Judge in the form of an offer of proof, and a copy, or the original, of any
documentary or other non-testimonial evidence desired to be introduced at the hearing

v'

before the District Judge,
! t

From this submission, the District Judge will determine the necessity for an additional

i i

evidentiary hearing, either before the Magistrate Judge or before the District Judge,
Mail your objections and “Statement of Necessity” to:.
Clerk, United States District Court
Eastern District of Arkansas
600 West Capitol Avenue, Suite A149
Little Rock, AR 72201-3325

'!

DISPOSITION
I.

Introduction
Plaintiff Deverick Scott: is a state inmate incarcerated at the Varner Unit of the Arkansas

Department of Correction (ADC). He filed this pro se action pursuant to 42 U-S.C § 1983, alleging
!
!

>>

deliberate indifference, negligence, and medical malpractice by Defendants with respect to his

‘

1

serious dental needs.1 (Doc. No. 5)

1

i

This matter is before the Court on the Motions for Summary Judgment, Briefs in Support,
and S tatements of Fact filed by remaining De fendants Correct Care Solutions, Dove,2 Jason Kelly,
and Strmgfellow (Doc, Nos. 44-46), and Rory Griffin (Doc. Nos. 49-51).5 Plaintiff filed
Responses, Briefs, and Statements of Fact in opposition to the Motions (Doe. Nos. 55-60).
I

i

Defendants Wendy Kelly, Payne, Cushion. Mcllan, Does, and Gibson were dismissed on
December 18, 2018 (Doe. No, 37).
2 Originally identified by Plaintiff as “Drove.”
3 Originally identified by Plaintiff as “Roy” Griffin,

i

i

!

>r

2

Case; 5;18-cv-00190-KGB

II.

Document #: 61-0

Date Filed; 07/02/2019

Page 3 of 15

Amended Complaint (Doc. No. 5)
Plaintiff alleged that after he submitted a sick call in November 2016, a dentist saw him in

December 2016 and placed him on a “filling" list for one of his teeth. He saw a Defendant
u

Stringfellow in February 2017, who again placed him on the list for a filling. In August 2017 he
saw Defendant Dove, who also placed Plaintiff on the list for a filling. However, Plaintiffs tooth
was not filled under December 5, 2017. He wrote several grievances during that time which
Defendant Griffin found with merit, but still did not receive the requested treatment until
December 2017. Defendants Jason Kelly and CCS also failed to ensure that the Varner Unit was
staffed with a dentist and failed to provide the proper scheduled treatment.
III.

Summary Judgment Motion
Pursuant to Fed.R.Civ.P. 56(a), summary judgment is appropriate if the record shows that

there is no genuine issue of material fact and the moving party is entitled to judgment as a matter
of Jaw. See Dulanv v. Carnahan. 132 F.3d 1234, 1237 (8th Cir, 1997). “The moving parry bears
f

the initial burden of identifying ‘those portions of the pleadings, depositions, answers to
interrogatories, and admissions on file, together with the affidavits, if any, which it believes
demonstrate the absence of a genuine issue ofmaterial fact.'" Webb v. Lawrence County. 144 F.3d
1131, 1134 (8th Cir, 1998) (quoting Ceiotex Coro, v. Catrett 477 U.S. 317, 323 (1986) (other
citations omitted)). “Once the moving party has met this burden, the non-moving party cannot
simply rest on mere denials or allegations in the pleadings; rather, the non-movant ‘must set forth
specific facts showing that there is a genuine issue tor trial.”1 |d. at 1135, Although the facts are
viewed in a light most favorable to the non-moving party, “in order to defeat a motion for summary
judgment, the non-movant cannot simply create a tactual dispute; rather, there must be a genuine
3

Case: 5:18-cv-00190-KGB

Document#: 61-0

Date Filed: 07/02/2019

Page 4 ot 15

dispute over those facts that could actually affect the outcome of the lawsuit .” IdA.

Motion of Defendants CCS, Kelly* Stringfellow, and Dove (Medical

Defendants)
Defendants state Plaintiff’s allegations against them should be dismissed because he cannot
show that they acted with deliberate indifference to his serious dental needs. In support they submit
Plaintiff's medical records and deposition statements and the Affidavit of Dr. Susan McDonald, a
dentist employed by Wellpath, LLC (formerly known as CCS), who is licensed to practice in the
State of Arkansas.
1)

Medical Records (Doc. No. 45-1 >

The relevant portions of Plaintiffs medical records show the following:
On November 13,20! 6, Plaintiff requested a dental cleaning and a new filling, and he was
seen by Defendant Stringfellow. a dentist on December 8, 2016. (P. 2) Stringfellow noted
restorable occlusal decay in a tooth identified as #18. and placed Plaintiff on a “restorative list.”
(P. 6) On February 10,2017, Plaintiff submitted a sick call request about his tooth and complained
about an infection in his swollen jaw. (P. 23) Defendant Stringfellow again examined him on
February 20,2017, and noted that Plaintiff was biting his cheek on the right side and did not present
with an infection or injury. (P. 25) He also noted that decay was present and restorable and placed
him on the “restorative list” for tooth #13, (Id.)
On May 11.2017, Plaintiff submitted a sick call request complaining about throat pain and
pain in a left tooth. (P. 57) On May 15, 2017, he signed a refusal form indicating that he did not
want to be examined at sick call. (P, 62) He submitted another sick call request on July 2, 2017
complaining about his throat and the delay in getting his teeth filled. (P. 73) He again refused sick
4

Case: 5;18-cv-0019CM<GB

Document #: 61-0

Date Filed: 07/02/2019

Page 5 of 15

!

call for treatment on July 10. 2017. (Pp. 73, 75) During a July 14, 2017 sick call with a non-party
medical professional, Plaintiff was treated for a boil on the right side of Im face, with notations of
no tooth pain or recent dental issues. (P. 77) The note also stated the following; “Mouth; teeth
appearing good repair and with no sign of dental Infection nor mass noted in the gingiva or
submandibular areas.” (Id.) Plaintiff was seen again at sick call on July 18, 2017 by Defendant
Dove for complaints that his right face was swollen, who noted that the swelling was facial, not
dental, in nature, and that Plaintiffs concern was the completion of his restorations. (P. 78) Dr.
Dove conducted a limited examination and recommended filling of tooth #13 and extraction of
tooth #17. (M.) On July 25, 2017, Plaintiff submitted a request for teeth filling, and on July 29,
2017, he submitted a complaint about throat pain. (Pp, 81, 84)
Dr. Dove saw Plaintiff on August 1, 2017 per his request to ha ve his tooth filled. (P. 85)
Dr. Dove noted occlusal decay in #18, with no redness or swelling, and that: Plaintiff should return
to the clinic for restoration of #18. (id.) Plaintiff' requested teeth cleaning and received such on
August 24,2017, (Id) He was scheduled for restoration of #18 on October 3, 2017, but that visit
was cancelled because of no water at the Unit, (P, 106) Dr, Dove’s notes indicate that “dental
concerns are a uon-rcstorablc tooth #17 and tooth #18 has deep decay and may never have been
rcstonablc,y\ji attempt will be made to restore tooth #18 with amalgam,” and that Plaintiff was to
return to the clinic at the next available time allowed. (Id ) An October 5.2017 addendum to the
August 1, 2017 dental notes stated as follows; “Pt, refused this day to have tooth #17 extracted.
Policy is extractions before anv type of restorations. To reappoint for earliest restoration possible,
1

'

11,1

1

111 "" "

'

■

1 1

"

......................... *

Pt. previously was only on extraction list. By refusing extraction he effectively has stowed his
treatment down. Will be seen for restoration in spite of ADC policy and procedure.” (P. 85) On
5

Case: 5:18-cv-0O19O-KGB

Document #: 61-0

Date Filed: 07/02/2019

Page 6 of 15

October 10, 2017, Plaintiff returned to the clinic for restoration of #31, per a previous diagnosis,
with no redness or swelling noted. (Pp. 108, 110) Dr, Dove also again noted that #17 should be
i

extracted, (P. 1L0) Plaintiff appeared at dental sick call on November 2,2017, and Jlr. Dove noted
the need to restore #18 and that #13 should be observed for three months. (P. 113) Dr. Dove further
noted: *‘Pt. to return to have tooth #18 restored. Tooth #13 should only be observed as wc have
told him every time we have seen him. He has also acknowledged this every time we have seen
him and explained to him whathis treatment should and will be.” (W.) And on December 5,2017,
Plaintiffs tooth #18 was restored, with notes of no redness or swelling. (P, 114)
In addition to these records, Defendants submitted records to show that from December 8,
2016 through January 4,2018, Plaintiff (who was housed in administrative segregation) received

i

almost daily health check-ins, at which times he never issued a complaint about dental pain. (Doc.
No, 45-1)
2)

Plaintiffs deposition testimony (Doc. No. 45 2)

Plaintiff testified that the time period at issue in his complaint is from November 2016
through December 2017, during which time he was housed in administrative segregation, and most
of that time, in. punitive isolation. (Pp. 8-11) He also testified that this lawsuit concerns the alleged
non-treatment of only tooth #18, located on his lower left side, and not any of his other teeth. (P.
20) He first complained about the tooth in November 2016 and was placed on a list for a filling in
December 2016. (Pp. 23, 25) He also stated that Dr. Dove told him #31 needed to be filled before
#1.8 was filled, (P. 28) Plaintiff complained that the Unit did not have a resident dentist from
November 2016 until Dr. Dove arrived in August 2017, and he did not see Dr. Stringfellow after
February 2017. (Pp. 29-31,33, 53) He also stated he wrote a grievance about his dental issues at
6

p.

i l

Case; 5:18-cv-0019Q-KGB

Document#: 61-0

Date Filed; 07/02/2019

Page 7 of 15

—

v!
least once every month. (P. 39} He acknowledged that during the time at issue he received
t
i‘

Tylenol and Nortriptyline for pain and did not request any additional pain medications. (Pp, 5758) He stated that he suffered pain, sometimes sharp, which was not constant, and which would

ii«

“come and go”. (Pp. 67-68)
3)

McDonald Affidavit

Dr. McDonald stated that she reviewed Plaintiffs dental records from November L 2016
through December 31, 2017, and that during all times he had active prescriptions for pain
medications including Nortriptyline, Gabapentin, Tylenol or Advil. Based on her review, she noted
Plaintiff testified he never had a dental infection during the relevant period of time and that tooth
#18 is good. She stated that Plaintiff did not have a serious dental need during the relevant period
of time and may have experienced some dental sensitivity to # 18 but was not in constant pain.
She also found no evidence of nerve involvement or infection in #18. indicating that it was not
symptomatic and that the cavity he experienced did not reach the tooth’s pulp, which contains the
nerves and blood vessels. Therefore, she concluded that if was appropriate to place him on the
restorative list and provide a filling in normal course of business, noting that any pain was
attributable to.tooth #17, for which he refused extraction. Finally, she noted that each time
Plaintiff submitted a dental request form he was seen within a reasonable amount of lime to assess
acute needs, none of which were identified at those examinations. Based on all this, Dr. McDonald
stated that the dental care treatment Plaintiff received was appropriate and satisfactory for his
:

complaints, to a reasonable degree of medical certainty.
Based on this evidence. Defendants state Plaintiff cannot show' that they acted with
deliberate indifference to a serious medical need, and that the delay in medical treatment resulted

! ‘

7
)
f ■

Case: 5:18-cv-0Q190-KGB

Document #: 61-0

Date Filed: 07/02/2019

Page 8 of 15

!
i

in a detrimental medical effect, citing fanner v. Brctman.511 US. 825,837 {1994), and Beyerhach
v.. Sears, 49 F.3d 1324 (8th Gif. 1995).

i '
I

In response. Plaintiff states Defendants abided by a custom and policy of delaying medical
treatment and that it resulted in tooth #18 “un-restorable.” (Doc. No. 56, p. 2) Plaintiff alleges he

li

was denied and delayed serious medical attention for over one year and that a reasonable jury

!
:

could find that the CCS policies delayed and denied necessary medical treatments.
In order to support a claim for an Eighth Amendment violation. Plaintiff must prove that
Defendants were deliberately indifferent to a serious medical need. Farmer v. Brennan. 51) U.S.
825, 834 (1994). However, even negligence in diagnosing or treating a medical condition does
not constitute a claim of deliberate indifference. Estelle v. Gamble. 429 U.S. 97, 105-06 (1976).
Rather, the “prisoner must show more than negligence, more even than gross negligence, and mere
disagreement with treatment decisions docs not rise to the level of a constitutional violation,”
Estate of Rosenberg v. Crandell, 56 F.3d 35, 37 (8th Cir. 1995). See also Smith v, Mareantonio,
910 F.2d 500, 502 {8th Cir. 1990) (holding that a mere disagreement with a course of medical

!

treatment is insufficient to state a claim for relief under the Eighth Amendment). Furthermore,
prison physicians are entitled to exercise their medical judgment, and “do not violate the Eighth

S

Amendment when, in the exercise of their professional judgment, they refuse to implement a
prisoner’s requested course of treatment.” Lone v. Nix. 86 F.3d 761, 765 (8th Cir. 1996). In
addition, an inmate who complains that a delay in medical treatment constitutes a constitutional
violation must provide “verifying medical evidence” in the record to establish the detrimental
effect of the delay, in order to succeed on his claim. Beyerhach v. Sears, 49 F,3d at 1326. Finally,
“ji]n the face of medical records indicating that treatment was provided and physician affidavits
8

i

:

Case: S:18-cv-0QX9G-KGB

Document #: 61-0

Date Filed: 07/02/2019

Page 9 of IS

indicating that the care provided was adequate, an inmate cannot create a question of fact by merely
stating that [he] did not feel {he] received adequate treatment,” Dulany v. Carnahan, 132 F.3d at
1240.
Initially, the Court notes that the main facts in this case are not disputed by the parties.
Plaintiff was first placed on tire restorative list for tooth #18 in. December 2016 and he received
the restored filling in December 2017. Plaintiff was seen on several occasions by two different
dentists and received treatment for other denial issues. And medical and dental professionals
always responded to any requests Plaintiff submitted. To be sure, however, the Court cannot
understand why it took a year to obtain the restorative filling, or why tooth #18 could not have
been restored at the same time other teeth were restored. Yet there is no evidence that any of the
Defendants were responsible for the scheduling of Plaintiff’s appointments or otherwise acted with
deliberate indifference to Plaintiff’s needs. Next, the Court notes that although Plaintiff now
claims in his response that he suffered pain, there are no dental-related complaints of pain in his
medical records and there arc large gaps of time between his inquiries about the status of his
appointment. In addition. Plaintiff never complained of pain during the nearly daily checks made
to his cell during that time and he admitted be was taking several different types of prescription
pain killers. The medical records of his visits also always indicated no swelling, sign of infection.
or tooth pain. The Court notes that on two occasions when Plaintiff did complain about pain in
sick call requests, he subsequently refused treatment. And he admittedly rejected Dr. Dove’s
efforts to extract a tooth beyond restoration which was located next to #18. In the notes of his
July 14, 2017 sick call visit for treatment of a facial boil, it was recorded that Plaintiff suffered no
tooth pain or recent dental issues.
9

i

Case: 5:18-cv-00i9G-KGB

Document #: 61-0

Date Filed: 07/02/2019

Page 10 of 15

:

With respect to Plaintiff s allegations against the individual Defendants, the Court finds
hardly any mention of Defendant Jason Kelley and it appears that Plaintiffs complaint with him
was the same as with CCS, which was the delay in treatment and lack of a resident dentist.
However, as noted above. Plaintiff has provided no medical evidence to show that he suffered a
detrimental effect from the delay. See Beyerbach, 49 F.3d at 1326. The record indicates that
i

during the first part of 2017, the Vainer Unit did not staff a full time dentist and relied on visiting
dentists from other Units. However, even given the extended delay, Plaintiff was treated on
several occasions for other ailments and the Court finds no evidence that any CCS

!

policies/procedures caused a constitutional violation.
Plaintiff saw Defendant Stringfellow two times, and both times the dentist placed him on
the restorative list. Plaintiff first saw Defendant Dove in July 2017. and between that time and
December 5, Plaintiff received new fillings in two teeth (##31,18) and a teeth cleaning. There is
no evidence in the record to support a finding that cither of these dentists acted with deliberate
indifference to Plaintiffs serious medical needs. As stated in Dulanv. Plaintiff does not present
evidence “that the course of treatment, or lack thereof, so deviated from professional standards
that it amounted to deliberate indifference in violation of the Eighth Amendment right to be free
from cruel and unusual punishment.” 132 F.3d at 1234. Therefore, the Court finds that the
Medical Defendants’ Motion should be granted.
In light of such, the Court declines to exercise jurisdiction over Plaintiffs state law
H

negligence and medical malpractice claims. McLaurin v. Prater, 30 F.3d 982, 984-94 (8th Cir.
!

■

1994).
B.

i

Defendant Griffin’s Motion
10

Case: 5:18-cv-00190-KGB

1)

I*
H
■ s

Document #: 61-0

Date Filed: 07/02/2019

Page 11 of 15

Official Capacity

The Court first finds that Plaintiff's monetary claims against Defendant Griffin in his
official capacity should be dismissed, pursuant to sovereign immunity. See. Will v. Michigan Deni
of State Police. 491 U.S. 58, 64 (1989).
2)

Individual Capacity

The Court also agrees that Plaintiff’s monetary claims against Griffin in his individual
capacity should be dismissed, pursuant to qualified immunity, which protects officials who act in
an. objectively reasonable mariner. It may shield a government official from liability when his or
her conduct docs not violate “clearly established statutory or constitutional rights of which a
H

reasonable person would have known." Harlow v. Fitzgerald. 457 U.S. 800, 818 (1982).
t

Qualified immunity is a question of law, not a question of fact,

McClendon v. Story County

Shcriff'sjlfflcc, 403 F.3d 510, 515 {8thCir, 2005). Thus, issues concerning qualified immunity
!

are appropriately resolved on summary judgment. See Mitchell v. Forsyth, 472 U.S. 511, 526
(1985) (the privilege is “an immmUyfmm suit rather than a mere defense to liability: and like an

i

7

absolute immunity, it is effectively lost if a ease is erroneously permitted to go to trial .”).
To determine whether defendants are entitled to qualified immunity, the courts generally
consider two questions: (1) whether the facte alleged or shown, construed in the fight most
favorable to the plaintiff, establish a violation of a constitutional or statutory right; and (2) whether
that right was so clearly established that a reasonable official would have known that his or her
actions were unlawful. Pearson v, Callahan. 555 U.S. 223,232 (2009),4 Defendants arc entitled

'Courts are “permitted to exercise their sound discretion in deciding which of the
two prongs of the qualified immunity analysis should be addressed first in light of the
II

Case: 5:18cv-00190-KGB

t

Document #: 61-0

Date Filed; 07/02/2019

Page 12 of 15 ~~

to qualified immunity only if no reasonable feet finder could answer both questions in the
affirmative, Nelson v. Correctional Medical Services. 583 F.3d 522,528 (8th Cir. 2009).
According to Defendant Griffin’s Declaration, he is employed by the ADC as Deputy

it

Director for Health and Correctional Service, which includes responsibilities for; medical and
mental health sendees, treatment programs, sex offender assessments, industry, accreditation,
i

Paws in Prison, transportation, healthcare grievances, chaplaincy services, and volunteer services.
(Doc, No. 49-1, p. 1) He reviews all inmate grievance appeals regarding medical issues to
determine whether they have merit, whether policy was followed, and whether prescribed medical
treatment was implemented. (Id.) If he determines that the issue in an appealed grievance has merit,
attempts will be made to resolve the matter through the development of a corrective action plan, a
monetary fine, or other resolution, (Id., p. 2) Griffin docs not, however, provide medical treatment,
supervise medical staff at the units, schedule medical appointments, become involved in the dayto-day deliver)' of medical care or services, or make clinical recommendations lor decisions
regarding inmate care. ( Id.)
Griffin reviewed four grievances relevant to Plaintiffs complaint. In VSM 17-01645,
Plaintiff complained on May 3,2017, that he had been referred to the dentist since November 2016
for a filling and had not been seen, and that'ADC and CCS violated policy by failing to provide
him a dentist. (Id,, p. 3; see also grievance, Doc, No. 49-3) Although the grievance initially was
rejected as untimely, it was not, and Griffin Found merit to Plaintiff s appeal due to the delay in

b

circumstances in the particular case at hand.” Nelson. 583 F.3d at 528 (quoting Pearson v.
Callahan. 555 U.S. at 236).

t \

r

12

r

Case; 5:18*cv-00190-KGB

Document #; 61-0

Date Filed; 07/02/2019

Page 13 of 3.5

treatment. (Id.-) In addition, CCS developed a correction action plan in response, to evaluate the

i

ii

dental sick call process to ensure effectiveness and educate the dental assistant on the importance
of ensuring timely-seheduled dental procedures. (Id.)
In grievance VSM 17-02455, Plaintiff complained on July 1,4, 2017 about a nine-month
dental delay which caused a wanton infliction of pain. (|d., pp. 3-4; see also grievance, Doc. No,
49-4) The medical department reviewed Plaintiffs records and noted that the grievance had merit
but that the issue was resolved on August 1,2017. (Id., p. 4) However, on appeal, Plaintiff stated
he did not receive the filling and a cheek of his electronic medical record resulted in no
documentation that he had. fid). Griffin then found the appeal with merit, and his staff contacted

?

the medical department and requested that Scott be scheduled for fillings, (Id,) CCS also submitted
another corrective action plan in response to Griffin’s decision. (Id.)
On August 17,2017. Plaintiff filed grievance VSM 17-02877, complaining that he did not
receive a filling the week prior as scheduled. (Id,, pp, 4-5; see also grievance, Doc. No. 49-5)
Plaintiff further complained he experienced pain and suffering for eleven months due to delays
and being denied dental care. (Id.) Griffin reviewed Plaintiffs medical records and found the
appeal with merit and CCS submitted a corrective action plan. (id.) He also noted that Plaintiff

r!

had received the filling. (Id.)
Finally, in grievance VSM 17-03388, on October 4, 2017, Plaintiff complained he had
waited over a month for his filling, but by the time Griffin received tire appeal, Plaintiff had
received the filling, so he found the appeal without merit and the issue- addressed in VSM 1702877. (Id-, P- 5; see grievance, Doc. No. 49-6.)
Plaintiff claims that Griffin’s knowledge of his dental delays and his position of authority
13

f

Case; 5:18-CV-0O19G-KG8

I

Document #: 61*0

Date Filed: 07/02/2019

Page 14 of 15

? r

1

necessitated his involvement in ensuring that Plaintiff received appropriate care, Having
i

l
?

reviewed the evidence and case law, the Court finds Griffin acted appropriately and did not
violate Plaintiffs constitutional rights.

!

First, Defendant Griffin’s knowledge of Plaintiff's dental issues is basically limited to the

I

i

first two grievances filed, because by the time the appeals in the latter two grievances reached

h

Griffin, Plaintiffs tooth was restored, Griffin’s response to the first grievance, VSM 17-01645

l

was to find that the appeal had merit and CCS submitted a corrective action plan. His response
to the second grievance, VSM 17-02455 was to have his staff contact the medical department and

!

request that Plaintiff be scheduled for the fillings. Griffin filed that response, finding the appeal

i

with merit, on September 30, 2017, We know from the record that Plaintiff was scheduled for

!

the filling on October 3, 2017, but that it was postponed because the Unit lacked water. The
o
u

record indicates Plaintiff had one tooth filled on October 10, 2017, and another tooth filled on

j

December 5. 20! 7. Whether or not Griffin had anything to do with this is not known; however,
there is no evidence that Griffin acted with deliberate indifference to Plaintiffs serious medical
t

needs, especially since he is not a medical doctor and his role is limited to reviewing the final step
i

in the grievance process. Therefore, the Court finds as a matter of law that no reasonable fact

!

finder could find that the facts alleged or shown, construed in the light most favorable to Plaintiff,

J

r

r

established a violation of a constitutional or statutory right by Defendant Griffin,
As noted above, the Court also will decline to exercise supplemental jurisdiction over
Plaintiff s state law claims against Defendant Griffin.
;

IV.

i

CONCLUSION
IT IS, THEREFORE, RECOMMENDED that Defendants’ Motions for Summary

i
i

I

14

l<
:

I

!

■

“1

Case: 5:18-cv-00190-KGB

Document #: 61-0

Date Filed: 07/02/2019

Page 15 of 15

$

Judgment (Doc. Nos, 44, 49) be GRANTED, and Plaintiff s complaint against Defendants be
DISMISSED with prejudice,
IT IS SO RECOMMENDED this 2nd day of July, 2019.

|

JEROME T. KEARNEY
UNITED STATES MAGISTRATE JUDGE

!

■

15

Case: 5:18-cv-00190-KGB

Document #: 68-0

Date Filed: 02/21/2020

Page 1 of 1

THE UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF ARKANSAS
PINE BLUFF DIVISION
DEVERICK SCOTT, ADC #131042
v.

)

PLAINTIFF

Case No. 5:18-cv-00190-KGB

ROY GRIFFIN, et al.

DEFENDANTS
JUDGMENT

Pursuant to the Order entered in this matter on this date and the Court’s prior Orders

, it is

considered, ordered, and adjudged that plaintiff Deverick Scott’s Eighth Amendment claims
against defendants Correct Care Solutions, LLC, Dr. Steven Stringfellow, Dr. James Dove,1 Jason
Kelley, and Rory Griffin2 are dismissed with prejudice. Mr. Scott’s claims against defendants
Wendy Kelly, Dexter Payne, Cashion, Gibson, Floyd McHan, and John Does are dismissed
without prejudice. Mr. Scott’s state-law claims are also dismissed without prejudice. '
It is so adjudged this 21st day of February, 2020.

fyisflK/Ji' bfrkuL*Kristine G. Baker
United States District Judge

2 ?r' Ja^Cr D°Ve W3S originally identified by Mr. Scott as “James Drove.”
Rory Griffin was originally identified by Mr. Scott as “Roy” Griffin.

®ntteb States; Court of Appeal#
Jfor tlje Cig&tfj Circuit

No. 20-1638

Deverick Scott
Plaintiff - Appellant
v.
Wendy Kelley, Former Director, ADC; Dexter Payne, Director, ADC
Defendants
Rory Griffin, Asst. Director, ADC (originally named as Roy Griffin); Correct Care Solutions
Defendants - Appellees
Cashion, Warden, Vamer Supermax Unit; Floyd McHan, "Tony" Asst. Warden,
Vamer Supermax Unit
Defendants
Jason Kelly, DHN, Vamer Supermax Unit
Defendant - Appellee
Does, All Officers, Vamer Unit; Gibson, Warden, VSM Unit
Defendants

tnJk

C

negligence and demonstrate a mental state akin to criminal negligence: disregarding
a known risk to the inmate’s health). The judgment is affirmed. See 8th Cir. R. 47B.

!

>
*

-3-

UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

No: 20-1638
Deverick Scott
Plaintiff - Appellant
v.
Wendy Kelley, Former Director, ADC; Dexter Payne, Director, ADC
Defendants
Rory Griffin, Asst. Director, ADC (originally named as Roy Griffin); Correct Care Solutions
Defendants - Appellees
Cashion, Warden, Varner Supermax Unit; Floyd McHan, "Tony" Asst. Warden, Varner
Supermax Unit
Defendants
Jason Kelly, DHN, Varner Supermax Unit
Defendant - Appellee
Does, All Officers, Vamer Unit; Gibson, Warden, VSM Unit
Defendants
Dr. Stringfellow, Dentist, VSM Unit; James Dove, Dentist, VSM Unit (originally named as
Drove)
Defendants - Appellees
Appeal from U.S. District Court for the Eastern District of Arkansas - Pine Bluff
(5:18-cv-OOl 90-KGB)

i

JUDGMENT
Before GRUENDER, WOLLMAN, and GRASZ, Circuit Judges.
This appeal from the United States District Court was submitted on the record of the
district court and briefs of the parties.
After consideration, it is hereby ordered and adjudged that the judgment of the district
court in this cause is affirmed in accordance with the opinion of this Court.
October 09, 2020

Order Entered in Accordance with Opinion:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

